March 18, 2020

By ECF and Ground Delivery
Danny Bickell
Deputy Clerk for Practice and Procedure
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

No. 19-1078, AT&T Mobility LLC v. McArdle

Dear Mr. Bickell:
I am counsel for the respondent in this case. On March 3, 2020, a certiorari
petition was docketed in this case. Unless extended by the Court, the response
would be due on April 2, 2020. For the reasons that follow, and pursuant to Rule
30.4, I respectfully request an extension of 22 days, to and including April 24, 2020.
An extension is necessary because I have a number of obligations in coming
weeks, including the filing of a merits amicus brief in this Court, an
opposition/cross-motion for summary judgment in a federal district court, and
another response to a petition for certiorari in a case presenting an issue relating to
this one that will require me to coordinate with multiple cocounsel. The ongoing
public health crisis further complicates such coordination. An extension will allow
me to meet my obligations and to file a response that adequately addresses the
points raised in the petition.
For these reasons, I respectfully ask that a 22-day extension be granted.
Thank you for your attention to this matter.
Sincerely yours,

Scott L. Nelson
Counsel for Respondent Steven McArdle
cc:

Andrew Pincus, Counsel for Petitioners

